OFFICE OF INSPECTOR GENERAL
                    Audit Report

Evaluation of the Railroad Retirement Board’s
  Benefit and Payment Operations System
           Continuous Monitoring

       This abstract summarizes the results of the subject audit. The
       full report includes information protected from disclosure and
       has been designated for limited distribution pursuant to
       5 U.S.C. § 552




                     Report No. 11-12
                    September 29, 2011




  RAILROAD RETIREMENT BOARD
                              REPORT ABSTRACT
 Evaluation of the Railroad Retirement Board's Benefit and Payment Operations
                         System Continuous Monitoring


The Office of Inspector General (OIG) for the Railroad Retirement Board (RRB)
conducted an evaluation of the activities conducted at the RRB for the continuous
monitoring of the Benefit and Payment Operations system to determine adherence with
existing policy, procedures, guidance, and standards. This evaluation also directly
supports the Office of Inspector General’s mandated Federal Information Security
Management Act of 2002 evaluation.

The objective of the continuous monitoring program is to determine if the set of
deployed security controls continue to be effective over time in light of the inevitable
changes that occur. Continuous monitoring programs provide organizations with an
effective mechanism to update certain security documents. In fiscal year 2010, the
RRB hired a contractor to perform continuous monitoring testing of the controls over the
Benefit and Payment Operations system.

In a separately issued Restricted Distribution report, we communicated that the RRB’s
continuous monitoring process does not fully comply with existing policy, procedures,
guidance, and standards. As a result, the RRB’s significant deficiency in internal control
over the certification and accreditation process remains in effect because of an
ineffective review process for contractor deliverables. We made five detailed
recommendations to RRB management for improvement in:

      controls over the review process of the continuous monitoring deliverables;
      the overall planning process for the continuous monitoring program; and
      the Office of Programs’ portion of the RRB’s agency-wide plan of action and
      milestones.

Agency Management has agreed to take corrective actions for all recommendations.
